                                        SOCIAL SECURITY

MEMORANDUM

Date:      June 12, 2012                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Representative Payees’ Ability to Monitor the Individual Needs of a Large Volume of
           Beneficiaries (A-04-11-11146)


           The attached final report presents the results of our audit. Our objective was to
           determine whether fee-for-service representative payees serving a large volume of
           Social Security beneficiaries had the resources and ability to fulfill their payee
           responsibilities. In doing so, we also interviewed beneficiaries of selected
           fee-for-service payees to determine whether the fees charged significantly impacted
           resources available to meet their basic needs.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                    Patrick P. O’Carroll, Jr.

           Attachment
           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    REPRESENTATIVE PAYEES’ ABILITY
  TO MONITOR THE INDIVIDUAL NEEDS OF
   A LARGE VOLUME OF BENEFICIARIES

         June 2012    A-04-11-11146




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                                        Executive Summary
OBJECTIVE
The objective of our audit was to determine whether fee-for-service (FFS)
representative payees serving a large volume 1 of Social Security beneficiaries 2 had the
resources and ability to fulfill their payee responsibilities. In doing so, we also
interviewed beneficiaries of selected FFS payees to determine whether the fees
charged significantly impacted resources available to meet their basic needs.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’ payments. 3 Representative payees are responsible
for managing benefits in the beneficiary’s best interest. 4 SSA provides instructions for
serving as a representative payee in A Guide for Representative Payees 5 and Guide for
Organizational Representative Payees (Guide). 6 These instructions include
requirements, suggestions, and best practices. 7

SSA provides oversight to ensure representative payees properly manage Social
Security benefits for beneficiaries in their care. To protect the interests of its most
vulnerable beneficiaries, SSA conducts various reviews of representative payees.
Between September 2008 and March 2011, we issued three reports that highlighted
weaknesses identified at individual large-volume FFS representative payees. One
obstacle we identified was the payees’ ability to regularly visit beneficiaries to determine
whether their current and foreseeable needs were being met.

1
  For purposes of this audit, we defined large-volume representative payees as those organizational or
FFS payees that serve 100 or more beneficiaries. FFS payees charge beneficiaries a fee for their
services. Both categories of large-volume payees may include social service agencies, institutions, or
financial organizations that serve as representative payee.
2
 For purposes of this report, we use the term “beneficiary” to represent both Social Security beneficiaries
and Supplemental Security Income recipients.
3
    Social Security Act §§ 205(j)(1) and 1631(a)(2); 42 U.S.C. §§ 405(j)(1) and 1383(a)(2).
4
    20 C.F.R. §§ 404.2035 and 416.635.
5
 SSA, A Guide for Representative Payees, http://www.socialsecurity.gov/pubs/10076.html (last visited
March 6, 2012).
6
  SSA, Guide for Organizational Representative Payees, http://www.ssa.gov/payee/NewGuide/toc.htm
(last visited November 07, 2011).
7
    Id.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)       i
RESULTS OF REVIEW
Similar to our previous audit work at large-volume FFS representative payees, we
determined that some did not always have resources, procedures, and controls to
ensure they fulfilled their payee responsibilities. In this review, we did not identify any
beneficiary whose essential needs were unmet by the large-volume FFS payees
reviewed. However, we believe SSA should remedy the identified control weaknesses
to better ensure large-volume FFS payees who serve SSA’s most vulnerable
beneficiaries—and manage an estimated billion dollars in benefits each year—do so
with the utmost integrity and care. Specifically, we believe the following conditions
represent vulnerabilities, which SSA needs to address through clearer guidance to FFS
payees. In many cases, SSA internal policy provides guidelines regarding these issues.
However, we found the Agency did not clearly articulate these requirements in the
Guides available to payees.

•   Large-volume FFS payees did not always have sufficient staff to routinely contact
    and/or visit the beneficiaries in their care. As shown in Appendix C, for the 25 FFS
    payees reviewed, staff-to-beneficiary ratios ranged from 1 employee for every
    8 beneficiaries to 1 employee for every 169 beneficiaries.

•   Some large-volume FFS payees relied on outside caseworkers or beneficiary
    self-reporting to ensure beneficiaries’ needs were met. At a minimum, we believe
    the FFS payees must establish sufficient controls and provide adequate oversight for
    the third-party caseworkers.

•   Of the 25 large-volume FFS payees we reviewed, 23 (92 percent) did not have a
    complete or correct telephone number and address for each beneficiary we
    attempted to interview. In fact, we were unable to interview two beneficiaries
    because the payees did not locate the beneficiaries before the end of our interview
    period.

•   Large-volume FFS payees reviewed did not always have adequate controls over
    personal spending money provided directly to beneficiaries or provided to third
    parties on behalf of beneficiaries. Although not required by SSA’s Guide, payees did
    not always account for disbursed funds or ensure they went to the intended
    beneficiary. For example, one payee allowed a mental healthcare provider to control
    the spending money for beneficiaries who were under his treatment. By allowing
    this situation to occur, the payee essentially assigned its responsibilities to the third
    party. In our opinion, doing so, without adequate documentation and monitoring
    controls, represents a significant vulnerability that the money could be misused.

•   Some payees were unaware of certain basic beneficiary needs. While the number
    of beneficiaries with unmet needs was minimal (22 of the 477 interviewed)—and the
    types of complaints were not life-threatening—inadequate monitoring of, and
    attention to, beneficiary needs can be a significant vulnerability.



Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   ii
Regarding the impact FFS payee fees had on SSA beneficiaries, some payees told us
they waived fees at times to meet beneficiaries’ current needs. While some
beneficiaries voiced their need for extra money, the majority interviewed (73 percent)
was not concerned with the amount of the fee charged. Some commented the fee was
fair, and they understood the payees were providing them a service. Although we are
aware that some beneficiaries did not choose to have an FFS payee and the fee can be
important in meeting their basic needs, SSA places beneficiaries with FFS payees as a
last resort when it cannot find another suitable payee. As such, SSA authorizes
qualified organizations to receive compensation for their services.

CONCLUSION AND RECOMMENDATIONS
As payees of last resort, FFS representative payees often manage benefits for SSA’s
most vulnerable beneficiaries—many without family or friends who are willing or able to
monitor their well-being. As such, FFS payees’ involvement with these beneficiaries is
essential—not only to manage their benefit payments but to ensure their basic needs
are met. Based on our previous and current audit work, we believe large-volume
payees who do not have adequate resources to assume these important responsibilities
increase the risk that beneficiaries may be negatively impacted. We acknowledge that
SSA has tremendous workload responsibilities and limited resources. However,
Congress made SSA responsible for administering and monitoring the representative
payee program. Given the importance and magnitude of this responsibility, we believe
it is essential that SSA strengthen its oversight of this program.

We recommend that SSA:

1. Develop and issue clarifying guidance to FFS payees regarding (1) the required
   frequency of contact and visits with beneficiaries; (2) controls and oversight
   necessary when providing beneficiaries or third-party caseworkers personal
   spending money; (3) oversight requirements when payees use third-party
   caseworkers to monitor and communicate beneficiary needs; and (4) the required
   frequency with which payees must confirm and update contact information with the
   beneficiary.

2. Refer any specific unresolved beneficiary needs identified in the audit to the
   attention of the representative payee (see Appendix D) and ensure necessary
   fiduciary corrective actions are taken.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix E for the Agency’s comments.




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   iii
                                                                         Table of Contents
                                                                                                                     Page

INTRODUCTION ..................................................................................................... 1

RESULTS OF REVIEW ........................................................................................ 11

Payees Did Not Routinely Contact or Visit Beneficiaries in Their Care ................. 13

Beneficiaries’ Needs Not Always Met .................................................................... 14

Payee Monitoring of Beneficiary Whereabouts Insufficient ................................... 16

Payees’ Controls over Beneficiaries’ Personal Spending Money
Inadequate ............................................................................................................ 17

Fees Charged Beneficiaries for Payee Services ................................................... 19

CONCLUSIONS AND RECOMMENDATIONS ..................................................... 21

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Beneficiary-to-Staff Ratios for Sample Payees

APPENDIX D – Beneficiary Residential Issues Identified

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)
                                                                              Introduction
OBJECTIVE
The objective of our audit was to determine whether fee-for-service (FFS)
representative payees serving a large volume 1 of Social Security beneficiaries 2 had the
resources and ability to fulfill their payee responsibilities. In doing so, we also
interviewed beneficiaries of selected FFS payees to determine whether the fees
charged significantly impacted resources available to meet their basic needs.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of
their youth or mental and/or physical impairments. Congress granted the Social
Security Administration (SSA) the authority to appoint representative payees to receive
and manage these beneficiaries’ payments. 3 A representative payee may be an
individual or an organization. Payments are made to representative payees for
Old-Age, Survivors and Disability Insurance beneficiaries or Supplemental Security
Income (SSI) recipients when the representative payments would serve the individuals’
interests. 4

SSA policy instructs employees to select the applicant best suited to serve as a
representative payee. 5 While SSA policy contains a preference list, the Agency
instructs employees to consider all factors, including the applicant’s relationship to the
beneficiary, the applicant’s interest in the beneficiary’s well being, and whether the
applicant has custody of the beneficiary. 6 SSA policy lists FFS organizations as the last
preferred payee for adults. 7




1
  For purposes of this audit, we defined large-volume representative payees as those organizational or
FFS payees that serve 100 or more beneficiaries. FFS payees charge beneficiaries a fee for their
services. Both categories of large-volume payees may include social service agencies, institutions, or
financial organizations that serve as representative payee.
2
 For purposes of this report, we use the term “beneficiary” to represent both Social Security beneficiaries
and Supplemental Security Income recipients.
3
    Social Security Act §§ 205(j)(1) and 1631(a)(2); 42 U.S.C. §§ 405(j)(1) and 1383(a)(2).
4
    Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A); 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A).
5
    SSA, POMS, GN 00502.105 A (August 2, 2011).
6
    Id.
7
    SSA, POMS, GN 00502.105 C.11 (August 2, 2011).


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)        1
Representative payees are responsible for managing benefits in the beneficiary’s best
interest. 8 SSA provides instructions for serving as a representative payee in A Guide
for Representative Payees 9 and Guide for Organizational Representative Payees
(Guide). 10 These instructions include requirements, suggestions, and best practices. 11
Following are a few requirements. 12

•      Be aware of the beneficiary’s current day-to-day needs (for example, food, clothing,
       shelter, medical expenses, and personal items) and use his or her payments to meet
       their needs.

•      Keep separate records for “. . . any major purchases made for the beneficiary. For
       example, if you withdraw $100 from the beneficiary’s account and buy an $80 item,
       then there must be a receipt for the $80 and a record reflecting the disposition of the
       remaining $20.”

•      Promptly report events or changes that affect beneficiaries’ payments or entitlement
       to benefits. For example, payees must report to SSA when beneficiaries die or
       move and if they are unable to contact beneficiaries and do not know where they are
       residing.

The Guide also encourages payees to go beyond managing finances and become
actively involved in beneficiaries’ lives. Following are a few suggestions and best
practices provided in the Guide. 13

•      Help the beneficiary access other available benefits and services (for example, food
       stamps, housing subsidies, Medicare assistance with prescription drugs, etc.).

•      Negotiate with the beneficiary’s landlord and other creditors to get favorable terms.

•      Purchase gift or debit cards from a retail store or disburse small amounts of
       spending cash to a beneficiary instead of giving them a check that he or she may
       have to pay to have cashed.



8
    20 C.F.R. §§ 404.2035 and 416.635.
9
 SSA, A Guide for Representative Payees, http://www.socialsecurity.gov/pubs/10076.html (last visited
March 6, 2012).
10
   SSA, Guide for Organizational Representative Payees, http://www.ssa.gov/payee/NewGuide/toc.htm
(last visited November 07, 2011).
11
     Id.
12
     Id. at pp. 16 and 19.
13
     Id. at pp. 18 and 61.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)     2
While SSA’s Guide encourages payees to assist caseworkers, when applicable, 14 it
does not address whether payees may rely on outside caseworkers to monitor
beneficiary needs or how often, if at all, payees should contact and visit each
beneficiary in their care. SSA online training material for representative payees is also
silent regarding these two issues.

During our audit period, FFS organizations could collect the lesser of 10 percent of the
combined Social Security and SSI monthly payment or $37 from beneficiaries. 15
However, the organization can collect less than the permitted limits or choose not to
collect a fee. 16

SSA Oversight of Representative Payees

SSA provides oversight to ensure representative payees properly manage Social
Security benefits for beneficiaries in their care. To protect the interests of its most
vulnerable beneficiaries, SSA requires that payees annually report on how they used or
saved benefits received. 17 In addition to annual accounting reports, SSA conducts the
following reviews to monitor the performance of volume representative payees. 18

•      Periodic site reviews of payees, as required by sections 205(j)(6)(A) and
       1631(a)(2)(G)(i) of the Social Security Act. According to SSA, these “triennial”
       reviews occur at least once every 3 or 4 years and include a face-to-face interview
       with the payee at their place of business, an assessment of the payee’s
       recordkeeping, and an interview with a number of beneficiaries to determine whether
       the payee assists them in meeting their needs. SSA conducts the beneficiary
       interviews face-to-face in a field office, at the beneficiary’s residence, or on the
       payee’s premises. SSA also conducts these interviews by telephone. If the
       beneficiary is a minor, legally incompetent, or unable to respond, policy requires that
       SSA staff interview someone who knows the beneficiary, such as their custodian or
       relative, and visit the beneficiary’s residence.

•      Random reviews of a portion of those payees not scheduled or not subject to a
       periodic site review.


14
     Id. at p. 18.
15
  For beneficiaries SSA determines to have a drug or alcohol condition, the monthly fee was the lesser of
10 percent of the combined monthly payment or $72. SSA, POMS, GN 00506.200 (December 23, 2009).
16
     SSA, POMS, GN 00506.200 C.2 (December 23, 2009).
17
     SSA, POMS, GN 00605.001 B.1 (November 7, 2008).
18
  In the context of payee site reviews, SSA policy defines volume payees as organizational payees
serving 50 or more beneficiaries and payees classified as individual/other serving 15 or more
beneficiaries. A description of SSA reviews to monitor the performance of payees is in the Agency’s
Annual Report on the Results of Periodic Representative Payee Site Reviews and Other Reviews,
Fiscal Year 2011 (January 2012).


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)      3
•     Targeted reviews of payees conducted in response to a “trigger” event, such as a
      beneficiary or third-party complaint of benefit mishandling or adverse media
      coverage.

•     Educational visits with all new payees who meet the criteria of sections 205(j)(4)(B)
      and 1631(a)(2)(D)(ii) of the Social Security Act, and who are authorized by SSA to
      charge a fee for payee services, to ensure the payee is complying with
      recordkeeping and reporting responsibilities.

•     Onsite reviews of State mental institutions. SSA conducts triennial onsite reviews to
      evaluate the fiduciary performance of State mental institutions serving as
      representative payees for its beneficiaries, pursuant to sections 205(j)(3)(B) and
      1631(a)(2)(C)(ii) of the Social Security Act.

•     Special Site Reviews of Employer Payees. These reviews focus on the working and
      living conditions of beneficiaries who are served by a payee who is also the
      employer.

•     Special Site Reviews of Other Organizational Payees. In Fiscal Year 2011, SSA
      initiated this type of review based on a model it developed that selects cases based
      on payee and beneficiary characteristics for additional monitoring. The State
      Protection and Advocacy agencies are conducting these new reviews.

Previous Office of the Inspector General (OIG) Reviews of Individual
Large-Volume FFS Payees

Between September 2008 and March 2011, we issued three audit reports in which we
highlighted weaknesses identified at individual large-volume FFS representative
payees. In these reports, we concluded that the lack of staff and controls contributed to
some of the problems noted. One challenge we identified was that payees did not have
sufficient staffing to regularly visit beneficiaries to determine whether their current and
foreseeable needs were met.

 Help Group Services, Inc., a Fee-for-Service Representative Payee for the
  Social Security Administration (A-04-08-28040), September 2008 19

      At the time of our audit, the representative payee had 2 full-time and 2 part-time
      employees and managed the benefits for over 500 individuals. However, none of
      the payee’s staff was fully dedicated to visiting or contacting beneficiaries.

      In the Other Matters section of the report, we expressed our concern that the payee
      did not have sufficient staff to properly manage benefits and ensure beneficiaries’
      needs were being met. We stated that SSA should consider developing policy that
      established a method for determining the number of beneficiaries that could be

19
     OIG report at http://mwww.ba.ssa.gov/oig/ADOBEPDF/A-04-08-28040.pdf.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   4
      assigned to an FFS payee. We stated that such a ratio would help ensure a
      representative payee has adequate staff to regularly visit beneficiaries and
      determine whether their basic living needs were being met.

      We also reported the payee needed to improve its safeguards over the receipt and
      disbursement of Social Security benefits. For example, the payee released a
      significant portion of benefits to some beneficiaries without requiring documentation
      of how the money was spent. That is, the payee gave 50 sample beneficiaries over
      $123,000 (41 percent) of their total benefits during a 12-month period. Furthermore,
      almost one-third of the sample beneficiaries received 50 percent or more of their
      benefits in the form of personal allowances. In another instance, the payee received
      funds for a beneficiary with whom they had no contact and for whom they paid no
      expenses for over 2 years. Until SSA discovered the beneficiary’s death and sent
      the payee an overpayment notice, the payee was unaware the beneficiary had died.

      We also found that the payee did not always maintain documentation to support
      expenditures paid with Social Security funds. In total, Help Group could not provide
      documentation to support approximately $230,000 in disbursements made during
      our audit period on behalf of 50 sample beneficiaries. Based on our findings, we
      made six recommendations. Most notably, we recommended that SSA refrain from
      placing additional beneficiaries with the payee until its financial records were
      deemed reliable and controls were in place to ensure that Social Security benefits
      were properly accounted for.

      Since our review, SSA has removed the payee. In SSA’s Annual Report on the
      Results of Periodic Representative Payee Site Reviews and Other Reviews to
      Congress, it reported that the payee could not account for approximately $1.4 million
      in beneficiary funds. 20 SSA also reported that it had completed misuse
      determinations, reimbursed the beneficiaries, recorded the overpayment to ensure
      collection efforts continue, and removed the payee.

 Sunshine Payee Corporation, a Fee-for-Service Representative Payee for the
  Social Security Administration (A-08-09-29106), February 2010 21

      At the time of our audit, the representative payee had 4 employees and managed
      the benefits for more than 1,100 individuals.

      Although our limited review did not identify instances where beneficiaries’ living
      arrangements were inadequate or where the payee had not met beneficiaries’
      needs, we questioned whether the payee could ensure the well-being of all
      beneficiaries at its current staffing level. In the Other Matters section of the report,
      we voiced our concern and reiterated our suggestion that SSA develop a policy that


20
     Supra note 18, at p. 37.
21
     OIG report at http://mwww.ba.ssa.gov/oig/ADOBEPDF/A-08-09-29106.pdf.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   5
      established a method for determining the number of beneficiaries that can be
      assigned to an FFS payee.

      While we reported that the payee generally had effective safeguards over the receipt
      and disbursement of Social Security benefits and ensured Social Security benefits
      were used and accounted for properly, we also found that it did not always comply
      with SSA’s polices. For example, we found that the payee did not obtain sufficient
      bond coverage for loss or theft of beneficiary funds. Based on our findings, we
      made four recommendations, including that SSA ensure the payee secured a bond
      and/or insurance policy that fully protected beneficiary funds or consider reducing
      the number of beneficiaries the payee can serve. Although the payee secured an
      increased bond amount, it was not sufficient to cover the number of beneficiaries it
      served. As such, SSA is reducing the number of beneficiaries the payee serves to
      ensure they are within their bond limit.

 Gateway Representative Payee Program, an Organizational Representative
  Payee for the Social Security Administration (A-08-10-11048), March 2011 22

      At the time of our audit, the representative payee had 1 employee who managed the
      benefits of about 180 individuals.

      Before our review, SSA conducted two triennial reviews of this payee in 2006 and
      2009 and found similar deficiencies each time. For example, SSA reported,
      “Gateway was acting as a conduit payee by issuing benefits directly to the
      beneficiaries for them to spend at their discretion.” SSA also determined that
      Gateway issued beneficiary funds to third parties, including employees of a
      rehabilitation center, family members, and friends of beneficiaries. The payee did so
      with the intent that these third parties would use the money to meet the beneficiaries’
      needs. However, it did not always require that the third parties provide receipts or
      an accounting of how the money was used. In addition, this payee did not pay
      beneficiaries’ monthly bills timely or keep sufficient documentation of expenditures to
      support whether funds were used to pay for beneficiaries’ current and foreseeable
      needs. The payee’s ledgers reflected negative balances for several beneficiaries
      and it could not provide SSA an accounting for approximately $333,000 in
      beneficiary funds handled by an employee of a partner agency.

      From our review, we determined that the payee did not always meet the needs of
      beneficiaries in its care. For example, one beneficiary we interviewed did not have a
      bed and had been without natural gas services for several months. As a result, the
      beneficiary had no heat, no hot water, and no working stove. The beneficiary stated
      that the payee had failed to pay the gas bill on time, so her gas service had been
      disconnected. The beneficiary also told us that she, her nurses, and her therapists
      reported this situation to the payee. In fact, Gateway had records showing that,
      1 month before we visited the beneficiary, a police officer contacted the payee and
      informed them that the beneficiary’s gas service had been disconnected. We
22
     OIG report at http://mwww.ba.ssa.gov/oig/ADOBEPDF/A-08-10-11048.pdf.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   6
      discussed the beneficiary’s living conditions with the payee and learned it had visited
      the beneficiary only once in 10 months. According to the payee, it did not have
      adequate staffing to ensure that beneficiary needs were met. The payee’s Benefits
      Coordinator—who had the sole responsibility of managing benefits—acknowledged
      that she was unable to inspect every house or apartment where beneficiaries
      resided.

      We also determined that the payee did not exercise sufficient control over
      beneficiary funds. This occurred because the payee permitted beneficiaries to use a
      significant amount of their monthly benefits at their own discretion. The payee also
      allowed rehabilitation program employees to control how some beneficiaries used
      their personal allowance money. In SSA’s 2006 triennial review, the Agency told the
      payee that this practice was not permitted and requested it to cease. However, the
      payee did not comply with the Agency’s directive or require that the rehabilitation
      program provide evidence of how the money was spent. In fact, the Agency found
      Gateway had continued this practice when it performed its next triennial review in
      2009. Unfortunately, the continued practice of distributing beneficiary funds to third
      parties may have contributed to the alleged misuse of beneficiaries’ funds by a
      rehabilitation employee. Based on our findings, we made three recommendations,
      including that SSA request a refund from the payee for any amount determined to
      have been misused/misappropriated by the rehabilitation employee, and apply the
      funds to the appropriate Social Security beneficiaries.

      At the time of SSA’s 2009 triennial review, the Agency decided not to assign any
      additional beneficiaries to this payee. In SSA’s Annual Report on the Results of
      Periodic Representative Payee Site Reviews and Other Reviews to Congress, the
      Agency stated it had removed this payee. 23

SSA generally agreed with our recommendations in all three reports. In two of these
reports, we encouraged SSA to consider developing policy that established a method
for determining the number of beneficiaries that could be assigned to an FFS
representative payee. To date, SSA has not implemented such a policy.

Social Security Advisory Board Recommendation

In September 2010, the Social Security Advisory Board (Advisory Board) released an
Issue Brief, Disability Programs in the 21st Century: The Representative Payee
Program. 24 In this Brief, the Advisory Board recommended, among other things, that
the SSA OIG “. . . examine a sample of beneficiaries with fee-for-service payees to see
how the payee’s fee impacts meeting the beneficiaries’ food, shelter, and personal

23
     Supra note 18, at p. 37.
24
   In 1994, when the Congress passed legislation establishing SSA as an independent agency, it also
created a seven-member bipartisan Advisory Board to advise the President, Congress, and
Commissioner of Social Security on Social Security and SSI policy. Issue Brief is at
http://www.ssab.gov/Documents/Rep_Payee_Program.pdf (last visited October 18, 2011).


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)    7
needs.” 25 The Advisory Board reported that because the SSI monthly benefit was
below the poverty level and because it is not the beneficiaries’ choice to have a fee-for-
service payee, it seems unreasonable to require that beneficiaries pay the payee’s fee.
However, the Advisory Board stated it did not know the impact the fee had on Social
Security beneficiaries who may be receiving other benefits to help pay the cost of food,
shelter, and other necessities. 26

SCOPE AND METHODOLOGY
To accomplish our objective, we reviewed SSA’s policies and procedures regarding
representative payees. We also identified a population of 1,553 large-volume payees
(1,050 organizational and 503 FFS) who were serving 100 or more Social Security
beneficiaries as of November 2, 2010. As shown in Table 1, we segregated each type
of large-volume payee into categories based on the number of beneficiaries in each
one’s care.

                         Table 1: Type and Number of Large-Volume Payees
                                     (As of November 2, 2010)

           Large-Volume Payees               Type and Number of
               (By Range of                 Large-Volume Payees
                                                                                       Totals
           Beneficiaries Served)
                                      Organizational             FFS
                    100 to 199             672                   248                     920
                    200 to 399               262                 161                     423
                    400 or more              116                  94                     210
                      Totals               1,050                 503                   1,553

We also estimated benefits managed by these large-volume payees in
Fiscal Year 2011, as shown in Table 2 below. 27




25
     Id. at p. 2.
26
     Id. at p. 9.
27
 We calculated the total amount of Social Security and SSI benefits each payee received from
October 2010 through September 2011 for beneficiaries in its care.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   8
            Table 2: Estimated Benefits Managed by Large-Volume Payees
                                (In Fiscal Year 2011)
                                      Estimated Benefits Managed by
       Large-Volume Payees                 Large-Volume Payees
       (Category by Range of                                                           Totals
        Beneficiaries Served)         Organizational             FFS

              100 to 199               $419,021,351        $209,634,406            $628,655,757
              200 to 399                341,684,235          299,791,347             641,475,582
             400 or more                572,249,821          448,175,830           1,020,425,651
                Totals               $1,332,955,407        $957,601,583           $2,290,556,990

We requested SSA provide us with the total benefits received by our large-volume
payees, but it did not have these types of data available. We used computer assisted
auditing techniques to calculate the benefits in Table 2. Our totals are an approximation
because of limitations in the Representative Payee System (RPS). For example, we
found instances where the Department of the Treasury’s Check Information System
confirmed that payments were sent to payees other than those indicated by RPS.

To accomplish our objective, we limited our review to FFS payees. In doing so, we
inquired of FFS payees and beneficiaries the impact fees had on resources available to
meet their basic needs. From the FFS payee population, we selected a sample of
25 payees to gain an understanding of the processes and practices each had to ensure
it met the needs of the beneficiaries in its care. For each SSA region, we generally
selected the FFS payee serving the greatest number of beneficiaries in each range of
beneficiaries served and located within 100 miles of one of our audit offices. 28 For
some range categories, we selected alternate payees when SSA raised a concern
about its triennial review occurring around the same time as our review or when the
payee did not charge a fee to at least 50 percent of beneficiaries under its care.

In addition, before selecting our sample, we asked SSA’s regional offices to identify any
FFS payee(s) with which they had concerns—or that had implemented best practices in
meeting beneficiary needs. While we received feedback from SSA, only four regions
identified payees of concern. The six FFS payees included in our sample generally had
the most beneficiaries in a category. One region identified a large-volume payee that
had a relatively good triennial review, which also served the greatest number of
beneficiaries in its range category. However, we replaced the payee because SSA
raised a concern about two separate reviews in the same year.




28
  We do not have an audit presence in Region 10. As such, the sample FFS payees were located within
100 miles of our Office of Investigations in Seattle, Washington.



Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   9
The sample payees included those who also served the homeless or provided mental
health services. The topics discussed during our payee interviews included staffing,
contact with their beneficiaries to determine and monitor their needs, outside assistance
(caseworkers and other individuals who were not employed by the payee) 29 with
monitoring their beneficiaries’ needs, the process for paying bills and disposition of
remaining funds, and fees charged its beneficiaries.

From each payee, we randomly selected 20 beneficiaries to interview. We selected
beneficiaries who generally resided within a 40-mile radius of the payee or OIG office.
We interviewed SSA’s beneficiaries to determine whether payees met their basic food,
shelter, and personal needs. In addition, we asked the beneficiaries about the payee’s
responsiveness and accessibility as well as the frequency of their contact with the
payee. We also inquired about whether their payee paid bills timely and provided them
with personal spending money. Also, in response to the Advisory Board’s
recommendation, we questioned beneficiaries about the impact FFS fees had on their
basic needs. For those beneficiaries that alleged their needs were not met, we
confirmed their allegations during our payee interviews, review of payee account
ledgers, or home and face-to-face visits.

See Appendix B for additional information regarding our scope and methodology and
Appendix C for the number of beneficiaries each sample payee served, the number of
staff each payee employed to assist with their payee duties, and each payee’s
beneficiary-to-staff ratios.




29
  For this report, we do not distinguish between caseworker and social worker or caregiver/home
provider. We found that some adult facility homes had caregivers who oversaw the individuals residing
there.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)      10
                                                            Results of Review
Similar to our previous audit work of large-volume FFS representative payees, we
determined that some FFS payees reviewed did not always have resources,
procedures, and controls to ensure they fulfilled their payee responsibilities. In this
audit, we did not identify any beneficiary whose essential needs were unmet by the
large-volume FFS payees reviewed. However, we believe SSA should remedy the
identified control weaknesses to better ensure large-volume FFS payees who serve
SSA’s most vulnerable beneficiaries—and manage an estimated billion dollars in
benefits each year—do so with the utmost integrity and care. Specifically, we believe
the following conditions represent vulnerabilities that SSA needs to address through
clearer guidance to FFS payees. In many cases, SSA internal policy provides
guidelines regarding these issues. However, we did not find that the Agency clearly
articulated these requirements in the Guides available to payees.

•   Large-volume FFS payees did not always have sufficient staff to routinely contact
    and/or visit the beneficiaries in their care. As shown in Appendix C, for the 25 FFS
    payees reviewed, staff-to-beneficiary ratios ranged from 1 employee for every
    8 beneficiaries to 1 employee for every 169 beneficiaries.

•   Some large-volume FFS payees relied on outside caseworkers or beneficiary
    self-reporting to ensure beneficiaries’ needs were met. We acknowledge that most
    caseworkers are conscientious and properly care for Social Security beneficiaries.
    In addition, we understand that some beneficiaries may be capable of
    communicating their needs to the payee. However, SSA made a determination that
    these beneficiaries needed a representative payee because of their age or mental
    and/or physical impairments. At a minimum, we believe the FFS payees paid to
    perform this function must establish sufficient controls and provide adequate
    oversight for the third-party caseworkers.

•   Of the 25 large-volume FFS payees we reviewed, 23 (92 percent) did not have a
    complete or correct telephone number and address for each beneficiary we
    attempted to interview. In fact, we were unable to interview two beneficiaries
    because the payees were unable to locate the beneficiaries before the end of our
    interview period.




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   11
•    Large-volume FFS payees reviewed did not always have adequate controls over
     personal spending money provided directly to beneficiaries or provided to third
     parties on behalf of beneficiaries. Although not required by SSA’s Guide, payees did
     not always account for disbursed funds or ensure they went to the intended
     beneficiary. For example, one payee allowed a mental health care provider to
     control the spending money for beneficiaries who were under his treatment. By
     allowing this, the payee essentially assigned its responsibilities to the third party. In
     our opinion, doing so without adequate documentation and monitoring controls
     represents a significant vulnerability that the money could be misused.

•    Through our interviews with beneficiaries, we determined that payees were unaware
     of some basic beneficiary needs. While the number of beneficiaries with unmet
     needs was minimal (22 of the 477 interviewed)—and the types of complaints were
     not generally life-threatening—inadequate monitoring of, and attention to, beneficiary
     needs can be a significant vulnerability.

Regarding the impact FFS payee fees had on Social Security beneficiaries, some
payees told us they waived fees at times to meet beneficiaries’ current needs. Some
beneficiaries voiced their need for extra money. However, 73 percent of the
beneficiaries interviewed were not concerned with the amount of the fee charged.
Some commented the fee was fair, and they understood the payees were providing
them a service. 30 Although we are aware that some beneficiaries did not choose to
have an FFS payee and the fee can be important in meeting their basic needs, SSA
places beneficiaries with FFS payees as a last resort when it cannot find another
suitable payee. As such, SSA authorizes qualified organizations to receive
compensation for their services.




30
  Some of the beneficiaries interviewed were not aware that their representative payee was allowed to
charge a fee for its services. Sixteen percent of these beneficiaries voiced concern with the fees
charged.



Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)      12
PAYEES DID NOT ROUTINELY CONTACT OR VISIT BENEFICIARIES IN THEIR
CARE

Although SSA’s Guide does not explicitly state the frequency with which payees should
communicate with or visit beneficiaries in their care—and most payees interviewed
reported they did not receive any guidance from SSA—the Guide does suggest that
payees should have frequent contact with beneficiaries. That is, the Guide instructs
payees that one of their required duties is to “Be aware of the beneficiary’s current
day-to-day needs (i.e., food, clothing, shelter, medical expenses, and personal
items).” 31 In addition, SSA’s internal policy states that teams evaluating payee
performance should consider changing the payee if “. . . the payee has not contacted
the beneficiary in more than 3 months.” 32

However, we concluded that FFS payee involvement with beneficiaries’ day-to-day
living was generally limited, unless the beneficiary received mental health (or other
clinical-type) service from, or were under the guardianship of, the payee. That is, the
FFS payees we reviewed generally did not seek out beneficiaries who were in their care
to determine whether their needs were being met. Instead, most FFS payees relied on
beneficiaries or third-party caseworkers to monitor and report beneficiaries’ needs. One
payee reported it typically would not accept clients without outside caseworkers. The
majority of payees told us that beneficiaries or their caseworkers generally initiated
contact. Of the beneficiaries interviewed, approximately 57 percent told us they
contacted the payee daily, weekly, or monthly. Of the remaining 43 percent, 4 percent
stated they had never spoken with the payee; 14 percent indicated they spoke with the
payee as needed; and 25 percent provided various responses, such as “don’t know,”
“rarely,” “once every 3 months,” “once a year,” or “2 years ago.”

In addition, the large-volume FFS payees we reviewed generally did not visit
beneficiaries in their care unless the payee was a guardian or a mental or behavioral
health care provider. 33 For these types of payees, designated staff met with
beneficiaries weekly or monthly. The remaining payees told us they had never visited
beneficiaries or visited “as needed.” Instead, the payees expected beneficiaries to visit
them at their office or a designated location. These visits were usually when
beneficiaries received their personal spending money. 34 However, for those


31
     SSA, Guide for Organizational Representative Payees, p.16.
32
     SSA, POMS, GN 00605.106 B.4.a (October 29, 2001).
33
  Of the 25 representative payees interviewed, 14 did not have mental health programs or provide
guardianship services. Of these 14 payees, 12 (86 percent) reported they had never visited beneficiaries
or visited “as needed.”
34
  The amount received in personal spending money depends on the amount of benefits received and
expenses and obligations due and is at the payee’s discretion. For beneficiaries in institutions, SSA
instructs payees to set aside $30 a month for their personal needs.



Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)      13
beneficiaries who preferred, or were unable or incapable of visiting, the payee delivered
their spending money by mail or caseworker.

Some FFS payees provided reasons why they did not visit beneficiaries. For example,
in contrast to SSA’s Guide, one payee believed its sole function was to pay
beneficiaries’ bills. Another payee stated it no longer had enough staff to visit regularly,
and another reported safety concerns for its staff. Therefore, it organized weekly
meetings with beneficiaries at central locations around the city. Other payees indicated
that caseworkers conducted home visits and would report to them if a beneficiary’s
need was not met. 35

Although SSA’s written guidance to FFS payees is silent on the frequency of beneficiary
contact/visits, the Agency’s internal policy provides a general guideline of 3 months (or
6 months if a social agency is the payee for a beneficiary in a foster home). 36 Despite
this guidance, in our interviews with regional office staff who work with the
representative payee program, 4 of the 10 representatives stated that contacts and/or
visits should occur more often than every 3 or 6 months. At least two regional
representatives stated they were unaware of criteria specifying the frequency with which
payees should contact and/or visit beneficiaries.

When SSA determines a beneficiary needs an FFS representative payee, the Agency
has concluded that the beneficiary has mental and/or physical impairments or is too
young to adequately manage their benefit payments. Some of the beneficiaries we
interviewed appeared capable of communicating their needs to the payee. However,
others were non-communicative and completely reliant on third-party caseworkers. We
believe reliance on beneficiary self-reporting or third-party caseworkers, without
adequate internal controls and oversight, can present a significant vulnerability. As
noted previously, in our 2008 audit of Help Group, Inc., we determined the payee had
no contact with one beneficiary for 2 years. Until SSA discovered the beneficiary’s
death and sent the payee an overpayment notice, Help Group, Inc., was unaware the
beneficiary had died. Given the established vulnerability, we believe SSA needs to
clarify its requirements regarding FFS payee contacts and/or visits with beneficiaries.

BENEFICIARIES’ NEEDS NOT ALWAYS MET

SSA’s Guide states that, “As a payee, you play a vital role in serving our beneficiaries.
You decide how to spend benefits to help create a stable living environment for the
beneficiary and ensure that the basic current needs of food, shelter, clothing, and
medical care are met.”37 In addition, the Guide emphasizes that the payee must make

35
  Sixty-four percent of the payees that did not provide mental health or guardianship services reported
relying on caseworkers, assigned to the beneficiary through another source, to inform them of their
beneficiaries’ needs.
36
     SSA, POMS, GN 00605.106 B.4.b (October 29, 2001).
37
     SSA, Guide for Organizational Representative Payees, p. 13.



Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)        14
“reasoned judgments” to use funds in the beneficiary’s best interest. It says, “To be
able to do this, you must make yourself aware of the beneficiary’s basic current and
reasonably foreseeable needs.”38

Most payees told us they assisted beneficiaries by providing them with information on
clothing and food banks, shelters, or low-income housing. However, we identified
22 (4.6 percent) of 477 39 sample beneficiaries who had issues with their residences.
These beneficiaries reported problems, such as non-working heating and air
conditioners, leaking roofs, and broken windows. Although several beneficiaries told us
they had not discussed these issues with their payee, some stated their landlords were
aware of the problems. We acknowledge that the number of occurrences in which
beneficiary needs were not met was minimal, and the issues identified were not life
threatening. However, if our sample payees had been more active in the beneficiaries’
lives, we believe they could have facilitated timely repairs of beneficiary residences.

In addition, one beneficiary wanted his payee to assist him in finding another place to
live, but the payee told us that it no longer assisted beneficiaries with living
arrangements. This payee stated that it stopped this practice because beneficiaries did
not always “. . . want to live where we think they should live.” Given that we only
interviewed about 5 percent of the sample payees’ beneficiaries, 40 we do not know how
many other beneficiaries may have issues or needs that are unknown or not met.

Based on our previous audit work, we believe payees’ limited involvement in the lives of
beneficiaries in their care increases the risk that beneficiaries may be negatively
impacted. As discussed in this report, during our audit of Gateway Representative
Payee Program, we determined that one beneficiary did not have a bed and had been
without natural gas services for several months. As a result, the beneficiary had no
heat, hot water, or working stove. The beneficiary stated that the payee had failed to
pay the gas bill on time, so her gas service was disconnected. Despite numerous
notifications to Gateway, including one from a police officer, at the time of our visit, the
payee had not completed the necessary steps to reestablish the beneficiary’s gas
service. According to the payee, it did not have adequate staffing to ensure that
beneficiary needs were being met. The payee’s Benefits Coordinator—who had the
sole responsibility of managing benefits—acknowledged that she was unable to inspect
every beneficiary’s residence. 41


38
     Id. at p. 23.
39
     Although we selected 500 beneficiaries for interview, we only interviewed 477.
40
  The 25 FFS payees selected had 9,586 beneficiaries in their care. For each payee, we selected
20 beneficiaries for interview, which totaled 500. Therefore, we calculated the percentage of beneficiaries
selected for interview, as follows: 500 (sample beneficiaries)/9,586 (beneficiary population) = 5 percent.
41
  SSA OIG, Gateway Representative Payee Program, an Organizational Representative Payee for the
Social Security Administration (A-08-10-11048), March 2011.



Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)      15
We believe staffing also made it a challenge for some sample FFS payees to effectively
monitor and meet the individual needs of beneficiaries in their care. We calculated the
beneficiary-to-staff ratio 42 for our sample payees and determined that the number of
beneficiaries for which payee staffs were responsible ranged from 8 to 169. In addition,
at the time of our audit, only two of the payees had employees who were fully dedicated
to regularly visiting beneficiaries in their care.

PAYEE MONITORING OF BENEFICIARY WHEREABOUTS INSUFFICIENT

SSA’s Guide acknowledges that “. . . it is difficult to keep track of the whereabouts of
some beneficiaries but the law requires SSA keep a current file of names and
addresses for payees and beneficiaries.”43 As such, the Guide states that payees must
report when a beneficiary moves or when the payee is unable to contact the beneficiary
and is unaware of the beneficiaries’ whereabouts. 44 The Guide also gives a specific
example of why it is important for payees to know the whereabouts of their SSI
recipients. For SSI recipients, moving can mean a change of living arrangements and,
possibly, a change in the amount of their SSI payment. 45

Our sample FFS payees could not always readily provide contact information or make
contact with beneficiaries in their care. Because of the transient nature of some Social
Security beneficiaries, we expected some inaccuracies with the addresses or telephone
numbers payees provided. However, 23 (92 percent) of the 25 payees did not have the
telephone number or address for each beneficiary in their care. Moreover, we were
unable to interview two beneficiaries because payees could not determine their
whereabouts. Because situations, such as unknown whereabouts, can affect recipients’
SSI payments or entitlement to benefits, payees should be immediately aware of any
changes to their living arrangements. As such, SSA should provide guidance on the
required frequency with which payees must confirm and update contact information with
the beneficiary. Of the two beneficiaries payees could not locate, one received SSI.

By maintaining frequent contact with the beneficiary, as well as home visits, payees
should detect changes in residence more readily, even for transient beneficiaries. We
notified SSA’s regional office about the beneficiaries that payees were unable to locate.
The following provides details on these two cases.

•      For one beneficiary, the payee returned to SSA approximately $970, which was the
       balance in the beneficiary’s account. According to the payee, it attempted to contact
       the beneficiary by telephone and letter, with no result. The payee did speak with the
       beneficiary’s landlord, who claimed the beneficiary resided at the same location,

42
   The ratio represents number of beneficiaries under each payee’s care to the number of staff employed
to conduct payee duties.
43
     SSA, Guide for Organizational Representative Payees, p. 69.
44
     Id. at p. 19.
45
     Id. at p. 69.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)    16
       even though the landlord was unable to contact the beneficiary. The payee mailed
       the beneficiary’s last personal spending check in September 2011. When we last
       inquired about the beneficiary on November 30, 2011, the payee had not heard from
       the beneficiary and sent a letter terminating its payee services. SSA records
       indicate this beneficiary had not received any benefit payments since July 2011.

•      For the second beneficiary, the payee learned the beneficiary had a new payee and
       remitted the account balance of $714 to the new payee. The payee reported this
       information to SSA. In this instance, the payee had not heard from the beneficiary
       since buying her a bus ticket out of State. According to the payee, it had lost contact
       with the beneficiary for about 1 month and had unsuccessfully attempted to contact
       the beneficiary several times.

PAYEES’ CONTROLS OVER BENEFICIARIES’ PERSONAL SPENDING MONEY
INADEQUATE

SSA’s Guide states that representative payees must use beneficiaries’ funds wisely and
in the beneficiary’s best interest. 46 The Guide also states that one best practice payees
may want to consider is to purchase gift or debit cards from a retail store or disburse
small amounts of spending cash to a beneficiary instead of giving the beneficiary a
check to cash. 47 SSA policy instructs field office staff to “Be alert for conduit payee
situations that may indicate lack of payee interest.” Specifically, a payee is acting as a
conduit when they turn over the full amount of benefits to a beneficiary or another
person without giving any direction or instruction about how to use the funds. 48

Also, SSA’s internal policy instructs its employees, who perform representative payee
reviews, to determine whether the payee has adequate controls in place when the
payee gives a substantial amount of beneficiary funds to a caseworker or caretaker.
Policy also instructs SSA reviewers to inquire how the payee disburses small amounts
of discretionary spending or personal needs funds to beneficiaries or their caretakers.
The SSA reviewers should expect the payee to maintain adequate oversight of these
disbursements, such as requiring beneficiaries to sign for the funds and caretakers to
submit receipts.

While the sample FFS payees had procedures in place to pay beneficiaries’ bills, some
did not exercise sufficient control over funds given directly to beneficiaries or their
caseworkers. Specifically, payees did not always ensure beneficiary personal spending
money went to the intended beneficiary. For example, one payee allowed a mental
health care provider to control the spending money for those beneficiaries who were
under treatment with the provider. While not prohibited by policies communicated to
payees in the Agency’s Guide, SSA internal policies do caution its review teams to be

46
     Id. at p. 24.
47
     Id. at p. 61.
48
     SSA, POMS, GN 00602.001 B.1 (March 5, 2002).


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   17
cognizant for such situations. In addition, this internal policy states that, if a payee is
using a caseworker to distribute beneficiary funds, the payee should maintain adequate
oversight of the disbursements, such as requiring receipts for expenditures.

Although our review did not include a detailed financial analysis of the sample payees’
operations, we discussed with the payees the practices or processes in place to ensure
beneficiaries received and used their personal spending money. We found that those
beneficiaries who visited their payee’s office were generally required to acknowledge
receiving their personal spending money by, for example, signing the check stub or the
office sign-in sheet. Beneficiaries who did not visit the payee received their money
either via mail from the payees or delivery by caseworkers. However, the payees did
not require that the caseworkers sign for the funds or obtain beneficiaries’ signatures of
receipt. In addition, approximately half (13) of the payees did not require or obtain
receipts to determine how beneficiaries spent the money.

Two payees told us that beneficiaries would tell them if they did not receive their
personal spending money. While we acknowledge that some beneficiaries may report
not receiving their funds to the representative payee, we question whether entrusting
third parties with the beneficiaries’ funds complies with the intent of SSA’s guidance.
For example, one of the representative payees permitted a caseworker to pick up
checks for personal spending money that averaged about $400 a month for one
beneficiary. As such, within 1 year, the caseworker could handle about $4,800 for that
beneficiary.

We also determined that the same payee received and disbursed benefits, less the
representative fee, to the same mental health care provider for another beneficiary. 49
Each month when the payee received the beneficiary’s benefits, it deducted its $37 fee
and disbursed the remainder of the benefits to the mental health care provider. When
we asked the payee about this practice, it responded that this occurs for “only a handful
of clients,” and that once the provider deducts its participation amount, the provider
gives the remainder to the beneficiary. The payee told us the remaining amount
(spending money) was usually less than $70 a month. However, the payee did not hold
the health care provider accountable for the beneficiaries’ personal spending money
and did not know whether beneficiaries received their allowances.

Because SSA assigns a representative payee to help those individuals who are
incapable of managing their money, SSA considers these beneficiaries to be its most
vulnerable. While most caseworkers may be honest and careful, without proper
oversight, SSA and the payee cannot be assured that benefits are used for the
beneficiary’s needs. In our audit of the Gateway Representative Payee Program,
Gateway gave beneficiary funds to caseworkers and other third parties without proper
controls in place. After SSA instructed the payee to stop this practice during its
2006 triennial review, the Agency found Gateway had continued this practice when it

49
  Although some payees allow beneficiaries to progressively manage more of their own benefits to
determine whether the beneficiary would be capable of managing his or her own funds, this was not the
case.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)      18
performed its next triennial review in 2009. As a result, one of the third-party
caseworkers may have misused beneficiary funds.

SSA’s Guide does not specifically prohibit payees from giving money (1) directly to the
beneficiary or (2) to a third-party caseworker on the beneficiary’s behalf. In addition, the
Guide does not specify the types of oversight controls that should be in place if a payee
relies on a caseworker to deliver or manage beneficiary funds. Although SSA internal
policy to SSA review teams indicates these practices are undesirable, the Agency has
not clearly articulated this policy to payees. As such, we believe SSA should develop
and issue clarifying guidance to FFS payees regarding (1) the required frequency of
contact and visits with beneficiaries; (2) controls and oversight necessary when
providing beneficiaries or third-party caseworkers’ personal spending money; and
(3) oversight requirements when payees use third-party caseworkers to monitor and
communicate beneficiary needs.

FEES CHARGED BENEFICIARIES FOR PAYEE SERVICES

The Social Security Act allows organizational representative payees to collect fees if
they meet specific requirements. 50 The fee is deducted from the beneficiary’s payment
and is used for expenses (including overhead) incurred by the organization. During our
audit period, FFS organizations could collect the lesser of 10 percent of the monthly
benefit amount or $37 ($72 for beneficiaries who meet certain conditions). 51 The payee,
however, may choose to collect a lesser fee or none at all, or waive the fee for months
in which the beneficiary does not have enough funds to cover living expenses. 52

FFS payees we interviewed charged the permitted fee or a lesser amount. Generally,
they were sensitive to the needs of their beneficiaries and waived their fee when it was
in the beneficiary’s best interest to do so. Of the payees sampled, three reported not
waiving beneficiary fees. Payees mostly reported waiving fees when they needed the
funds to meet a beneficiary’s current obligations and immediate needs. About
52 percent of payees reported waiving fees for both SSI and Social Security
beneficiaries, while 36 percent reported waiving fees for mostly SSI recipients. We
encourage all payees to continue being sensitive to each of their beneficiaries’ needs
and benefits available, especially for SSI recipients.

According to some of the beneficiaries we interviewed, at times, they would be better
able to meet their basic needs if FFS payees did not deduct fees from their monthly
benefit payments. However, 73 percent of the beneficiaries we interviewed was not

50
  Social Security Act §§ 205(j)(4) and 1631(a)(2)(D); SSA, POMS, GN 00506.001 (October 26, 2005)
and GN 00506.100 (March 31, 2005).
51
  SSA, POMS, GN 00506.200 (December 23, 2009). SSA permitted payees to charge a $72 fee for
beneficiaries in their care with a drug addiction and alcoholism (DAA) condition. SSA policy describes a
DAA condition as one where the individual is entitled to disability benefits and has a medically
determinable substance use disorder, which is listed as a secondary diagnosis.
52
     SSA, POMS, GN 00506.001 B (October 26, 2005).


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)     19
concerned with the amount of the fee charged. Some beneficiaries voiced their need
for extra money but understood the payees were providing a service and were entitled
to compensation.

Although the maximum monthly fee of $37 (in certain cases, $72) may appear
reasonable, to an SSI recipient with a maximum monthly benefit amount of $674, the
fee can be important in meeting their basic needs. We are also aware that some
beneficiaries did not choose to have an FFS payee. However, SSA places beneficiaries
with FFS payees as a last resort when it cannot find another suitable payee. As such,
SSA authorizes qualified organizations to receive compensation for their services.




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   20
                                                           Conclusions and
                                                          Recommendations
FFS representative payees we reviewed who served a large volume of beneficiaries did
not always have the resources and ability to fulfill their payee responsibilities
adequately. Rather, the payees relied heavily on third-party caseworkers and
beneficiary self-reporting to monitor and meet beneficiaries’ needs. While SSA
guidance does not prohibit such practices, we believe payees’ limited involvement in the
lives of beneficiaries in their care increases the risk that beneficiaries may be negatively
impacted. As such, we encourage SSA to strengthen its representative payee program
through additional guidance and continued monitoring.

We recommend that SSA:

1. Develop and issue clarifying guidance to FFS payees regarding (1) the required
   frequency of contact and visits with beneficiaries; (2) controls and oversight
   necessary when providing beneficiaries or third-party caseworkers personal
   spending money; (3) oversight requirements when payees use third-party
   caseworkers to monitor and communicate beneficiary needs; and (4) the required
   frequency with which payees must confirm and update contact information with the
   beneficiary.

2. Refer any specific unresolved beneficiary needs identified in the audit to the
   attention of the representative payee (see Appendix D) and ensure necessary
   fiduciary corrective actions are taken.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix E for the Agency’s comments.




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   21
                                                  Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Beneficiary-to-Staff Ratios for Sample Payees

APPENDIX D – Beneficiary Residential Issues Identified

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)
                                                                                     Appendix A

Acronyms
 Advisory Board                 Social Security Advisory Board
 C.F.R.                         Code of Federal Regulations
 DAA                            Drug Addiction and Alcoholism
 FFS                            Fee-for-Service
 Guide                          Guide for Organizational Representative Payees
 OIG                            Office of the Inspector General
 POMS                           Program Operations Manual System
 RPS                            Representative Payee System
 SSA                            Social Security Administration
 SSI                            Supplemental Security Income
 U.S.C.                         United States Code




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)
                                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures pertaining to representative payees.

•   Obtained a data extract from SSA’s Master Representative Payee file that listed
    1,553 large-volume representative payees serving 100 or more SSA beneficiaries1
    as of November 2, 2010. This population comprised 1,050 organizational and
    503 fee-for-service (FFS) payees.

•   From the FFS population, we determined our test population of 137 FFS payees by
    identifying those that were located within a 100-mile radius of our audit offices in
    Regions 1 through 9 and our investigations office in Region 10. As shown in
    Table 1, we stratified the test population into three discrete ranges based on the
    number of beneficiaries served. Our range categories were 100 to 199, 200 to 399,
    and 400 or more.

                        Table 1: FFS Representative Payee Test Population
                                    (As of November 2, 2010)
                                            Number of FFS Payees
                                    (per Category of Beneficiaries Served)
                                                                                            Total
           Region                  100 to 199        200 to 399        400 or more         Payees
     Boston – I                        15                11                  4               30
     New York – II                       0                  1                 1                 2
     Philadelphia – III                  7                  3                 1               11
     Atlanta – IV                        5                  2                 0                 7
     Chicago – V                         6                  8                 2               16
     Dallas – VI                         2                  0                 0                 2
     Kansas City – VII                   4                  3                 1                 8
     Denver – VIII                       3                  2                 1                 6
     San Francisco – IX                  8                13                 11               32
     Seattle – X                         8                10                  5               23
              Totals                    58                53                 26              137


1
 For purposes of this report, we use the term “beneficiary” to represent both Social Security beneficiaries
and Supplemental Security Income recipients.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)     B-1
As shown in Table 2, we selected 25 FFS representative payees for our review.

                             Table 2: FFS Representative Payee Sample
                                             FFS Representative Payees Selected
           Region                           (Per Category of Beneficiaries Served)
                                100 to 199                 200 to 399                 400 or More
    Boston – I             Moore Center               Alternatives              Family Service
                           Services                   Unlimited, Inc.           Association of Greater
                                                                                Fall River
    New York – II          None                       Family and                None Selected
                                                      Children’s Service
    Philadelphia – III     Plan of PA                 Mental Health             Connections CSP, Inc.
                                                      Association of York
                                                      County
    Atlanta – IV           Easter Seals               Highland Rivers           None
                           West Alabama               Center
    Chicago – V            Milwaukee Center for       West Michigan             Society’s Assets,
                           Independence               Guardianship              Inc.
    Dallas – VI            Friends for Life           None                      None
    Kansas City – VII      Payee Services of          For Safe Keeping,         Budget and Financial
                           Eastern Kansas             Inc.                      Management Assistance
    Denver – VIII          AspenPointe Health         Colorado Coalition        Mental Health Center of
                           Services                   for the Homeless          Denver, Inc.
    San Francisco – IX     Catholic Charities         Walden House RPI          LIFE
                           (Modesto, California)
    Seattle – X            Kitsap Mental Health       Share and Care            CDE SSI Payee
                           Services                   House (Tacoma,            Services, Inc.
                                                      Washington)

We generally selected the FFS payee that served the greatest number of beneficiaries
within each range category in each region, and located within 100 miles of an Office of
the Inspector General (OIG) audit office. 2 For some range categories, we selected
alternate payees based on input from SSA’s regions. For example, when selecting
alternate payees, we considered the timing of the payee’s most recent or upcoming
SSA review and SSA’s experience and history with the payee. We also selected
alternate payees to ensure our sampled payees charged a fee to at least 50 percent of
its beneficiaries.

In addition, before selecting our sample, we asked SSA’s regional offices to identify any
FFS payee(s) with which they had concerns—or, that had implemented best practices in
meeting beneficiary needs. While we received feedback from SSA, only four regions
identified payees of concern. The six included in our sample selection generally were
the FFS payee with the most beneficiaries in a category. One region identified a
large-volume payee that had a relatively good triennial review, which also served the

2
 We do not have an audit presence in Region 10. As such, the sample FFS payees were located within
100 miles of OIG’s Office of Investigations in Seattle, Washington.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   B-2
greatest number of beneficiaries in its range category. However, we replaced the payee
because SSA raised a concern about two separate reviews in the same year.

See Appendix C regarding the number of beneficiaries each sample payee served and
number of staff employed to assist with payee duties.

•     Obtained and reviewed a current copy of Form SSA-637 (Expanded Monitoring
      Program Site Review Questionnaire for Volume and Fee for Service Payees) for the
      selected payees. 3

•     Queried SSA's Representative Payee System (RPS) for a list of individuals who
      were in the care of each selected payee.

•     Obtained from each FFS payee, a list of individuals they were serving, as of the date
      of our request. 4 We also requested that each FFS payee provide the address and
      telephone number of beneficiaries in its care.

•     Selected 20 beneficiaries under each FFS representative payee’s care. We
      selected beneficiaries who generally resided within a 40-mile radius of the payee or
      OIG office.

       Attempted to interview each sample beneficiary to determine whether the FFS
        payee met their basic needs. We interviewed 477 of the 500 selected.

       Of the 20 sample beneficiaries, we attempted to visit 10 at their residence or
        another location that was suitable for them. We met with or observed 247 of the
        250 selected.

       If necessary, we confirmed beneficiary allegations during our representative
        payee interviews, review of beneficiary account ledgers, or home and
        face-to-face visits.

•     Visited and interviewed representatives of each FFS payee to determine the
      processes and practices each had in place to ensure they were meeting
      beneficiaries’ needs.

       Determined the beneficiary-to-staff ratio for each.

       Traced an expense item for three sample beneficiaries, if possible.

       Reviewed sample beneficiary accounting ledgers to determine fees charged.


3
 According to the Form SSA-637 (Expanded Monitoring Program Site Review Questionnaire for Volume
and Fee for Service Payees), SSA reviewed the selected payees between 2009 and 2011.
4
    We notified the selected payees in March, May, or June 2011.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   B-3
Our review of internal controls was limited to gaining an understanding of SSA’s policies
and procedures regarding FFS representative payees. We relied primarily on the
Agency’s RPS to identify the number of beneficiaries in each payee’s care. We also
depended on RPS selection and termination dates as our source for determining benefit
payments received by our population of large-volume payees in Fiscal Year 2011.
However, RPS dates were not always reliable for this purpose. We found instances
where the Department of the Treasury’s Check Information System confirmed that
payments were sent to payees other than those indicated by RPS. These problems
occurred in instances where payees changed during the fiscal year.

The entities audited were the Offices of the Deputy Commissioners for Operations;
Retirement and Disability Policy; and Budget, Finance and Management. We
performed our fieldwork from January through September 2011. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   B-4
                                                                                       Appendix C

Beneficiary-to-Staff Ratios for Sample Payees
The following tables illustrate our sample fee-for-service (FFS) representative payees
by category and their beneficiary-to-staff ratios. That is, we determined the number of
beneficiaries in each sample payee’s care, as of our November 2, 2010 data extract,
and divided that by the number of staff each payee employed to assist with their
representative payee duties. 1 (See Appendix B regarding payee selection.)

               Table 1: Sample FFS Payees Serving 100 to 199 Beneficiaries
                                   Beneficiary-to-Staff Ratios (100 to 199 Category)
                                                                                Number of
                                                                             Beneficiaries Per
                                                    Number of      Number          Staff
                                                   Beneficiaries      of     (Beneficiary/Staff
     Region                       Payee               Served         Staff         Ratio)
Boston – I                Moore Center Services         178            4             45
New York – II             None
Philadelphia – III        Plan of PA                           188             22                94
Atlanta – IV              Easter Seals West                    197              2                99
                          Alabama
Chicago – V               Milwaukee Center for                 155              6                26
                          Independence
Dallas – VI               Friends for Life                     138             18 3                  8
                                                                                   4
Kansas City – VII         Payee Services of                    131             1               131
                          Eastern Kansas
Denver – VIII             AspenPointe Health                   101              6                17
                          Services
San Francisco – IX        Catholic Charities                   161              2                81
                          (Modesto, California)
Seattle – X               Kitsap Mental Health                 190             25                95
                          Services


1
 Our sample payees provided us with the number of staff who were employed or employee hours
expended each week to assist beneficiaries. We did not confirm payees’ assertions regarding staffing.
We counted each part-time staff as .5. We did not count outside caseworkers.
2
    Plan of PA reported it employed two part-time staff.
3
    For Friends for Life, we included 16 part-time staff (4 employees and 12 volunteers).
4
    Payee Services of Eastern Kansas stated it employed only two part-time staff.
5
  Kitsap Mental Health Services told us there were an additional 70 staff that were directly associated with
their clients, but did not clarify hours worked assisting beneficiaries.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)       C-1
                Table 2: Sample FFS Payees Serving 200 to 399 Beneficiaries
                                       Beneficiary-to-Staff Ratios (200 to 399 Category)
                                                                                    Number of
                                                                                 Beneficiaries Per
                                                        Number of      Number          Staff
                                                       Beneficiaries      of     (Beneficiary/Staff
     Region                          Payee                Served         Staff         Ratio)
Boston – I                 Alternatives Unlimited,          385          2.5 6          154
                           Inc.
New York – II              Family and Children’s            255          2.5 7          102
                           Service
Philadelphia – III         Mental Health                    308          5.5 8           56
                           Association of York
                           County
Atlanta – IV               Highland Rivers Center           258          59              52
Chicago – V                West Michigan                          360        6                   60
                           Guardianship
Dallas – VI                None
Kansas City – VII          For Safe Keeping, Inc.                 338        2 10              169
                                                                                  11
Denver – VIII              Colorado Coalition for                 298        13                  23
                           the Homeless
San Francisco – IX         Walden House RPI                       265        2                 133
                                                                                  12
Seattle – X                Share and Care House                   371        25                  15
                           (Tacoma, Washington)




6
    Alternatives Unlimited, Inc., told us it employed one part-time staff.
7
    Family and Children’s Service reported one part-time staff.
8
    Mental Health Association of York County reported one part-time staff.
9
 Highland Rivers Center told us it expended about 200 hours a week, which computes to 5 full-time staff,
assisting beneficiaries. We divided 200 by 40 hours to develop a staff number.
10
     For Safe Keeping, Inc., reported it employed two part-time staff.
11
  Colorado Coalition for the Homeless told us it expended about 504 hours a week, which equals to
13 full-time staff, assisting beneficiaries. We divided 504 by 40 hours to develop a staff number.
12
  Share and Care House, Tacoma, Washington, reported 1,000 hours a week expended on assisting
beneficiaries. We divided 1,000 by 40 hours to develop a staff number.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)    C-2
               Table 3: Sample FFS Payees Serving 400 or More Beneficiaries
                                      Beneficiary-to-Staff Ratios (400 or more Category)
                                                                                    Number of
                                                                                Beneficiaries Per
                                                        Number of      Number         Staff
                                                      Beneficiaries       of    (Beneficiary/Staff
     Region                          Payee                Served        Staff         Ratio)
Boston – I                 Family Service                   712         7.5 13           95
                           Association of Greater
                           Fall River
New York – II              None
Philadelphia – III         Connections CSP, Inc.            445        44 14             10
Atlanta – IV               None
Chicago – V                Society’s Assets, Inc.                 529            4.5 15        118
Dallas – VI                None
Kansas City – VII          Budget and Financial                   536            7               77
                           Management Assistance
Denver – VIII              Mental Health Center of                671            35              19
                           Denver, Inc.
San Francisco – IX         LIFE                                 1,870            19              98
Seattle – X                CDE SSI Payee                          546            5             109
                           Services, Inc.




13
     Family Service Association of Greater Fall River reported one part-time staff.
14
  Connections CSP, Inc., reported the beneficiary-to-staff ratio was 10:1. As such, we calculated staff at
44 to obtain the ratio.
15
     For Society’s Assets, Inc., we included one part-time staff in our count.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)    C-3
                                                                                     Appendix D

Beneficiary Residential Issues Identified
From our review, we identified 22 (4.6 percent) of 477 1 sample beneficiaries who had
issues with their residences. These beneficiaries reported problems, such as
non working heating and air conditioners, leaking roofs, and broken windows. While
several beneficiaries told us they had not discussed these issues with their payee, some
stated their landlord was aware of the problems. Table 1 lists the specific issues
identified during our review.

                          Table 1: Beneficiary Residential Issues Identified
Count        Region                      Issues Identified with Beneficiary Residences
     1          R1       Broken window.
     2          R1       Water damage from a leaking roof and malfunctioning heating system.
     3          R2       Air conditioner not working properly.
     4          R3       Heating system not working properly, bed bugs, and mice.
                         Floor caving in; malfunctioning heating system and air conditioner; and a
     5          R4
                         malfunctioning tub, toilet, and sinks.
     6          R4       Broken windows in the living room, back room, and kitchen.
     7          R4       Broken oven.
     8          R5       Low water pressure and roaches.
     9          R6       Oven not working properly.
    10          R6       Oven not working properly.
    11          R6       Malfunctioning air conditioner unit.
    12          R7       Mold, cracked walls, bugs, and termites.
    13          R7       Needs a new furnace.
    14          R7       Malfunctioning furnace.
    15          R7       Malfunctioning air conditioner.
    16          R7       Leaking roof.
    17          R8       No air conditioning or heat.
    18          R8       Needs an air conditioner or fan.
    19          R9       Hotel manager shuts off water to control water usage.
    20          R9       Needs lock on door repaired.
    21          R9       Heating system not working properly.
    22         R10       Broken washer.


1
    Although we selected 500 beneficiaries for interview, we only interviewed 477.


Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)
                                                                                     Appendix E

Agency Comments




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)
                                             SOCIAL SECURITY

MEMORANDUM


Date:      May 9, 2012                                                                     Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, "Representative Payees’ Ability to Monitor the
           Individual Needs of a Large Volume of Beneficiaries" (A-04-11-11146)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




           Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“REPRESENTATIVE PAYEES’ ABILITY TO MONITOR THE INDIVIDUAL NEEDS
OF A LARGE VOLUME OF BENEFICIARIES” (A-04-11-11146)

Recommendation 1

Develop and issue clarifying guidance to FFS payees regarding (1) the required frequency of
contact and visits with beneficiaries; (2) controls and oversight necessary when providing
beneficiaries or third-party caseworkers personal spending money; (3) oversight requirements
when payees use third-party caseworkers to monitor and communicate beneficiary needs; and
(4) the required frequency with which payees must confirm and update contact information with
the beneficiary.

Response

We agree.

Recommendation 2

Refer any specific unresolved beneficiary needs identified in the audit to the attention of the
representative payee (see Appendix D) and ensure necessary fiduciary corrective actions are
taken.

Response

We agree.




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)   E-2
                                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
    Kimberly A. Byrd, Director, Atlanta Audit Division

    Theresa Roberts, Audit Manager, Birmingham Office of Audit

Acknowledgments
In addition to those named above:

    Teaketa Turner, Senior Auditor

    Atlanta Audit Division
    Boston Audit Division
    Chicago Audit Division
    Dallas Audit Division
    Financial Audit Division
    Kansas City Audit Division
    New York Audit Division
    Philadelphia Audit Division
    San Francisco Audit Division
    Technical Services Division

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-04-11-11146.




Rep Payees’ Ability to Monitor Individual Needs of a Large Volume of Beneficiaries (A-04-11-11146)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations
(OER), and Office of Technology and Resource Management (OTRM). To ensure compliance with
policies and procedures, internal controls, and professional standards, the OIG also has a comprehensive
Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                      Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                   Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches, and
presentations to internal and external organizations, and responds to Congressional correspondence.
                      Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
